     Department of Homeland Security

     ��������������������������



  United States Secret Service’s Management Letter 

     for FY 2013 DHS Financial Statements Audit





OIG-14-74                                   April 2014
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                       APR 21 2014

MEMORANDUM FOR:              Gwendolyn Sykes
                             Chief Financial Officer
                             United States Secret Service

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     United States Secret Service’s Management Letter for
                             FY 2013 DHS Financial Statements Audit

Attached for your information is our final report, United States Secret Service’s
Management Letter for FY 2013 DHS Financial Statements Audit. This report contains
four comments and eight recommendations related to internal control deficiencies that
were not required to be reported in the Independent Auditors’ Report on DHS’ FY 2013
Financial Statements and Internal Control over Financial Reporting. Internal control
deficiencies which are considered significant deficiencies were reported, as required, in
the Independent Auditors’ Report, dated December 11, 2013, which was included in the
Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency Financial Report.
We do not require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, United States Secret Service
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards generally
accepted in the United States of America and Government Auditing Standards, we considered internal
control over financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements. In conjunction with our audit of the
financial statements, we also performed an audit of internal control over financial reporting in accordance
with attestation standards established by the American Institute of Certified Public Accountants.
The United States Secret Service (USSS) is a component of DHS. During our audit, we noted certain
matters involving internal control and other operational matters, related to USSS, that are presented for
your consideration. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control or result in other operating
efficiencies. These matters are summarized in the Table of Financial Management Comments on the
following pages. The disposition of each internal control deficiency identified during our FY 2013 audit –
as either reported in our Independent Auditors’ Report, or herein – is presented in Appendix A.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to light all
weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge of USSS’s
organization gained during our work to make comments and suggestions that we hope will be useful to
you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any other
purpose.

Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                    United States Secret Service
                             Table of Financial Management Comments

                                         September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)



Comment
Reference   Subject                                                                      Page

FMC 13-01   Controls over Counterfeit Evidence Destructions                               2
FMC 13-02   Human Resource Compliance Controls                                            2
FMC 13-03   Funds Management Controls and Supporting Documentation                        2
FMC 13-04   Lease Future Minimum Commitments Footnote Disclosure                          4



                                          APPENDIX


Appendix    Subject                                                                      Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and    5
            Recommendation (NFRs)




                                                  1

                                      United States Secret Service
                                   Financial Management Comments

                                          September 30, 2013




FMC 13-01 – Controls over Counterfeit Evidence Destructions (Notice of Finding and
Recommendation (NFR) No. United States Secret Service (USSS) 13-01)

       We conducted site visits to four USSS field offices. At one site, two months of Not-in-Evidence
       Notes designated as destroyed on a fiscal year (FY) 2013 certificate of destruction remained in
       the vault. Additionally, the Counterfeit Tracking Application system had been updated to reflect
       the entire destruction.

       Recommendation:
       We recommend that the USSS notify and remind all offices through correspondence that a policy
       for Certificate of Destruction and/or Disposition is in place in the Investigative Manual to include
       accountability procedures for the evidence until it is destroyed.

FMC 13-02 – Human Resource Compliance Controls (NFR No. USSS 13-02)

       During testwork performed over a sample of 20 employee personnel actions (SF-52s), three
       instances were identified in which the quality review and approval for the personnel action was
       not completed prior to the submission of the pay period payroll data file to U.S. Department of
       Agriculture National Finance Center.

       During testwork performed over a sample of 40 employee time cards, the following conditions
       related to review and approval of annual and sick leave were identified:
       •	 One instance in which an employee time card was approved by the supervisor; however, the
           status of the leave request for the leave taken during the period was “pending.” A corrected
           time card was not submitted in order to update the status of the leave request to approved.
       •	 One instance in which an employee time card was approved by the supervisor; however, the
           employees’ approved leave for the pay period did not agree to the hours entered on the time
           card. A corrected time card was not submitted in order to correct this discrepancy.
       •	 One instance in which an employees’ request for sick leave was approved subsequent to the
           end of the pay period.

       Recommendation:
       We recommend that USSS communicate noted errors and issue guidance on how to correct these
       errors in webTA; as well as emphasize to managers on the appropriate procedures for approving,
       disapproving, and correcting previously approved leave submissions.

FMC 13-03 – Funds Management Controls and Supporting Documentation (NFR No. USSS 13-03)

       Controls over the quarterly review of prior year obligations were not operating effectively to
       ensure all obligations were subject to the quarterly review process. Specifically, we noted three
       instances in which obligations selected for testwork were not subject to the review.




                                                    2

                               United States Secret Service
                            Financial Management Comments
                                   September 30, 2013



During testwork over Undelivered Orders (UDOs) as of June 30, 2013 and September 30, 2013,
we reviewed a sample of nine UDO balances and nine lines of activity and identified untimely
obligation and deobligation of UDOs. Specifically, we noted the following:
•	 One instance in which the period of performance on the contract expired September 30, 2010
    and the funds had not been deobligated.
•	 One instance in which the contract to add FY 2013 funding to the obligation was not executed
    prior to the receipt of services. The related invoice was direct disbursed, reversed and then
    applied to the obligation. The contract was executed May 20, 2013; however, the period of
    performance for the obligation began April 1, 2013 and the invoice service period was March
    27, 2013.
•	 One instance in which the contract was not executed and recorded in the general ledger prior
    to the start of the period of performance. The contract period of performance began on
    October 1, 2012, and the contract was not executed and recorded in the general ledger until
    July 12, 2013.

During testwork over operating expense type transactions as of June 30, 2013, we reviewed a
sample of 40 transactions and identified the following deficiencies related to untimely goods
receipt and improper direct disbursement of expenditures:
•	 Two instances in which unpaid goods and services were provided prior to September 30,
    2012; however, the expenses were not included in the September 30, 2012 accounts payable
    accrual due to delays in processing the goods receipts in the financial reporting system.
•	 Two instances in which invoices for recurring monthly payments with Federal Protective
    Service and General Services Administration (GSA) were recorded as direct disbursements,
    and the related obligations had not been executed. Recurring monthly payments are to be
    matched to obligations.

Recommendations:
We recommend that USSS:
•	 Review UDOs at least once a quarter and require timely follow up and review by Financial
   Management Division (FMD).
•	 Ensure that no work begins prior to the period of performance of a contract or after the period
   of performance has expired. In instances where the period of performance of the provided
   service is outside the period of performance of the contract, the purchase must be handled as
   an unauthorized obligation and ratified.
•	 Remind offices of policies regarding the recording of receipts, specifically that receipts should
   be recorded in the general ledger at the time the goods and services are received rather than
   when the invoice is received.
•	 Review and update policies and procedures related to establishing obligations to ensure that
   invoices that are required to be matched to a purchase order are not paid via direct
   disbursement.




                                             3

                                     United States Secret Service
                                  Financial Management Comments

                                         September 30, 2013




FMC 13-04 – Lease Future Minimum Commitments Footnote Disclosure (NFR No. USSS 13-06)
     Controls over the preparation and review of the lease footnote disclosure were not designed
     properly. USSS estimated future minimum lease payments based on current year lease expense
     for all leases (including cancelable leases) instead of tracking leases per the DHS Component
     Requirements Guide requirements.

       During testing over a sample of 15 leases, 14 of the leases selected for testwork were cancelable
       and should not have been included in the lease footnote disclosure. This resulted in an
       overstatement of the future minimum lease payments.

       Recommendations:
       We recommend that USSS:
       •	 Update the footnote preparation process to include receiving updated non-cancelable lease
          information on a quarterly basis.
       •	 Maintain a payment schedule, reflecting total amounts of fiscal year projected payments per
          the non-cancelable lease contracts, within the Financial Statements Branch. This payment
          information should be reported on the USSS Leases Footnote as per guidance from the Office
          of Management and Budget (OMB) Circular No. A-136 Section 3 Financial Section – Notes.




                                                   4

                                                                                                               Appendix A
                                         United States Secret Service
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                    Disposition1
                                                                                                   IAR                FMC
              NFR
Component                Description                                                     MW         SD        NC       No.
              No.
USSS          13-01      Controls over Counterfeit Evidence Destructions                                              13-01
USSS          13-02      Human Resource Compliance and Controls                                                       13-02
USSS          13-03      Funds Management Controls and Supporting Documentation                                       13-03
USSS          13-04      Journal Entry Controls                                           A
                         Non-Compliance with the Federal Financial Management
USSS          13-05                                                                                            J
                         Improvement Act of 1996
USSS          13-06      Lease Future Minimum Commitments Footnote Disclosure                                         13-04


1
  Disposition Legend:
IAR	        Independent Auditors’ Report dated December 11, 2013
FMC	        Financial Management Comment
MW	         Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	         Contributed to a Significant Deficiency at the Department level when combined with the results of all other
           components
NC	         Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
           combined with the results of all other components
NFR	        Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996




                                                              5

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   United States Secret Service

   Director
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-74
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
